t

■X

A A O
\j \J &

20

No.

""

•?
i

•

■. • !

'

IN THE
SUPREME COURT OF THE UNITED STATES

SWfVl a/IcM<\AULS

1 n;

— PETITIONER

(Your Name)
vs.

S

Mary VaAvl — respondent(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

LUi W\ S4tx:W:S Cour-V/Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Skvm McM gy\U&j

MSA'btQD

(Your Name)

AWxoacl (Act,

S5S~Dm flA. P0 8<^£)00

(Address)

A

\ QAlO_________
(City, State, Zip Code)

RECiiVii"(Phone Number)

OCT - 7 2020
IuprImecqurtos^

QUESTION(S) PRESENTED

Whether the cumulative effect of the prosecutor
continually referencing matters not.in evidence; her vouching
for her witnesses; her acting as an unsworn witness (adding her
personal opinions), her attempting to shift the burden of proof
to the defendant; her attacking the defense counsel rather than
the evidence; and her mischaracterizing the evidence, deprived :
the petitioner of a fair trial?
Whether the prosecutor, knowing the sensative nature of
the charges presented should have taken special care not to play
on the jury's emotions; and whether her incessant use (64 times)
of improper comments-prosecutorial misconduct-overwhelmed the
jury and deprived the petitioner of a fair trial given the
inflammatory nature of the charges in this case?

LIST OF PARTIES

[XI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Francis v. Franklin, 471 U.S. 307 91985).

TABLE OF AUTHORITIES CITED
CASES
U.S.C.A. Const. Amend. XIV Section 1

PAGE NUMBER
1

Francis v. Franklin, 471 U.S. 307 91985)

10

People v. Wright 133 A.D. 1097 (3rd Dep't 2015)

11

People v. Lloyd, 115 A.D. 3d 766 (2nd Dep't 2014)

11

STATUTES AND RULES

OTHER
(concluding remarks from " About Sleeps Role in Memory" by
Rasoh and Jan Born, Psycological Reviews, American Psycological
Society)
Pg. 11

1

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

•2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

'-3

STATEMENT OF THE CASE

4-9

REASONS FOR GRANTING THE WRIT

10-11

CONCLUSION

12

INDEX TO APPENDICES
APPENDIX A

UUWI
OrQ&r

G>ur4 of Appels

C'lva^r

kvao4i0^i

llru-WA Skies DTskrci Cocat4- E<*skm t>’)s4rid' e>T
Oraer (Wiyl n?\ m-cAt <?a
APPENDIX C Uni
1 4e& Skcks Cmri (£’ /-] ppe^is
p&x
prmr:Amy)n^ vnalion -for
APPENDIX B

APPENDIX D
APPENDIX E
APPENDIX F

r-.

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
wfFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[uKis unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
M'is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
IXl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Mflrr.Vv 30^) 3.0 SO
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied .by the United States Court of
Appeals on the following date:
33 &CQ.O
, and a copy of the
order denying rehearing appears at Appendix____
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S.C.A. Const. Amend. XIV, Section 1 " AIL persons born
or naturalized in the United States, and subject to the ;
jurisdiction thereof, are citizens of the United States and of
the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of
citizens of the United States, nor shall any State deprive any
person of life, liberty, or property, without due process of law:
nor deny to any person within its jurisdiction the equal
protection of the laws."

3.

STATEMENT OF THE CASE
By an indidtmdnt, filed on or about September 16, 2013, the <:
prosecution accused petitioner of Rape in the First Degree (Penal
Law 130.35[l]),- Sexual Abuse in the First Degree (Penal Law ' ' I , ,
121.ll[a], [b]) 3
This case arises from an incident that occurred on August 30,
2013, at about 2:50 to 3:00 a.m. inside the women's bathroom at
Jack Duggan's Pub in Floral Park, New York. On that morning, at a
about 2:30 a.m., after spending the previous five hours playing
drinking games with her friends, the complaintant entered the
bar,1. Pettitioner was at the bar that evening too.
Upon arriving at the bar, the complaintant asked her friend
Danny to order her a beer after which she waited outside the
woman s bathroom and began texting wiith a friend on the phone.
The complaintant stepped inside the bathroom once her friend
Svetlana Chirokikh left the bathroom after using it. The
bathroom consisted df two rooms, each with its own door. The room
nearest the bar was the "sink room" which led into a second ,
separate smaller closet like room that contained the toilet.TThe
video evidence and the testimony of Jack Duggan, the bar owner,
demonstrated that behind the bar area was &Uhallway that led to
the kitchen and the rear exit. The left side of this hallway
bordered a small dining area, while the right side contained
a series of rooms. The first door on the right led to the men s
room, while the second door led to the women's bathroom. Meanwhil
the third door led to a basement stock room, while the fourth and
final door led to a unisex handicapped bathroom, adjacent to the
kitchen.
The video evidence showed pettitioner walking to the front of
the bar after leaving the men's room sometime after the complaint
ant had entered the women's bathroom. A few minutes later,
i.i. i. i;
pettitioner returned to the hallway and proceeded to enter the
unisex bathroom. Pettitioner quickly exited that bathroom , and ■ i.i.
checked the next door, which led to the downstairs stock room.
Petitioner quickly left that room too and opened the door to
step-inside the women's bathroom, where pettitioner remained u
until the complaintant's friend Svetlana entered about eight to
ten minuted later.
According to .the complaintant, pettitioner enterdd the bab.hroo
m, and started dancing and making small talk. The complaintant
claimed that she originally thought that petitioner was drunk
and that he had mistaken her for another ^btndn. But, when the
complaintant tried to redirect petitioner after he kissed her,
appellahti allegedlly covered her mouth, forced her into the toile
t room, and with one hand picked her up off the floor by her 'Ui.’O
throat and, with his other hand simultaneously on her shoulder,
he allegedly raped her.
Thei.’complaintant estimated that the entire incident lasted
nearly ten minuted. Yet eveni:though the complaintant described
a frantic struggle, one in which she allegedly screamed for help
and kicked the toilet stall door and was 'fliterAlly going crazy,
hitting(pettitioner) everywhere" in the mouth, nose, ears and cbo
chest whith an "unbreakable" cast on her arm, none of the

4.

prosecution's witnesses who were at the bar that evening
heard the commotion incthe bathroom.
J
Indeed, the video surveillance and the oral testimony
established that the following events took place after
pettitioner had entered the bathroom.
A male patron entered the men's room adjacent to the women's
room.
The bartender walked down the hallway, passing the women's
bathroom room on her way to the kitchen.
Another male patron entered the men's room, briefly joining
the other male patron who had entered a few minutes earlier.
The bartender emerged from the kitchen, and again walked past
the women's bathroom after which one of the male patrons left
the men's bathroom.
Evan Triantafalis, the bar owner's friend and who was at the
bar for about two hours prior to the incident, entered the men's
room.
The complaintant's friend Svetlana walked to the women's
bathroom, and waited outside before returning to the bar.
Duggan walked past the women's room, entered the basement
stock room to retrieve a few bottles of liquor, and again
walked past the women's room on his way to the bar.
Upon returning to the bar, Svetlana asked Duggan to unlock
the women's bathroom. Duggan unlocked the door with a butter
knife and returned to the bar.
Thus, not a single one of the individuals who walked past the
women's bathroom during the time that this allegedly brutal
attack was happening heard anything unusual. In addition, the vie
video surveillance demonstrated that the bar.'was not crowded.
Besides Duggan, his friend Triantafalis, the bartender, and
the complaintant and her four friends, no more than halfdozen other patrons were there that evening. Further, while the
video is muted, it reveals that the music, was not loud, as none
of the guests appeared to have any difficulty communicating with
each other. Indeed, when Svetlana asked Duggan, who was standing
behind the bar to unlock the door to the womanls room, she did
not lean across the bar to speak with him. Ndr did Duggan lean
in to hear her speak.
x In any event, at Svetlana's request, Duggan unlocked the
bathroom and returned to the bar. Svetlana entered the sink
area and did not hear any noise or commotion inside the u
bathroom. Svetlana opened the door to the toilet area, and
encountered pettitioner, who walked past her while ; ilc
allegedlyyadjusting his belt or pants zipper. Svetlana did
not hear the complaintant fall to the floor upon entering
the bathroom, and,_in fact, she-believed that she had
inadvertently walked in on a couple.
But, upon entering the toilet area, she purportedly found the
complaintant crying on the bathroom floor and her dress pulled
down. When Svetlana asked what had happened, the complaintant
reported, "I was sexually assaulted". Svetlana immediately
reported this to the complaintant's male friends who were
outside, all of whom chased after pettitioner via the rear
entrance of the bar, where they ultimately found him crouching
behind a bush, adjusting his belt buckle.

5.

Responding to the 911 call, Floral Park Police Department
Officer Michael Saville encountered a group of young men yelling
and accusing appellant of attacking a woman. As per his protocol,
Officer Saville directed appellant to sit on the curb. Appellant
complied. Officer Saville asked pettitioner to explain what had
happened, and appellant replied that "he tried to get with.ua girl
and she freaked out on him".
While Officer Saville remained with pettitioner, his partner,
Police Officer Joseph Eauria, went to the women's bathroom where
he saw Svetlana comforting the complaintant. There, the cu. ti
complaintant again stated that she was sexually assaulted, but wa
when Officer Lauria returned to the bathroom several minutes
later, she accused pettitioner of raping her. Whith that
. ...Icio
pettitioner was arrested.
Detective Susan Entenmann of the Nassau County Police Dept,
met the complaintant at the hospital after being assigned the
case. Det. Entenmann spent several hours with her, both at the
hospital and later at the precinct. At no time did she notice
the complaintant ho have any apparent injuries;. Det. Entenmann
also took a photograph of her. This photograph, which clearly
depicts her neck, did not reveal any injuries to the complaintant
either.
A certified Sexual Assault Nurse Examiner ('the nurse")
Examined the complaintant. She noticed that the complaintant had
scrapes on her back and elbow, although they were not bleeding
and did not require treatment. She also observed red marks on the
complaintants nack, as well as several tears on the complaintant^
vagina.
Nevertheless, the nurse breached protocol by failing to record
the size of these tears. Nor did she have any recolection of ,;a
their size. Further, she did not conduct an internal examination
of the complaintant.ls throat for injuries, even though the c
complaintant claimed that pettitioner had lifted her off the
floor by her throat and held her there for the duration of the
attackwwhich allegedly lasted eight to ten minutes.
The nurse collected a rape kit and obtained a "swab" from the
complaintant's neck. Even though the complaintant claimed that ..a
she was menstruating at the time of the alleged attack, DNA
analysis did not uncover her DNA on petitioner's clothing. Nor
did the DNA expert find any;, blood or semen on the complaintant's
dress, even though the complaintant, who claimed that her
ig
bleeding was "very light" at the time of the alleged attack,
admitted seeing blood at the bottom,_of her tampon when she
removed it attthe hospital.
The DNA expert detected the pressence of pettitioner's saliva
mixed with the complaintant's salivacon her neck, as well as an
unknowncmalels saliva mixed with the complaintan's saliva on the
opposite side of complaintant' s neck,. Hetdid not detect \ cttirio
pettitioner's DNA on the complaintant's body or clothing, nor did
he detect any of the pettitioner's DNA inside the complaintant.
This totally undermined complaintant's testimony that there
was no kissing..
:■ Meanwhile, in describing the alleged attack, the complaintant
stated that, after she rejected pettitioner' s advances, ia,cl
pettitioner "initially got angry and agitated he started grabbing

6.

my neck and the dress came down and he started grabbing my chest"
after which he lifted her off the ground and pulled her into the
toilet area. On cross examination, the complaintant, who : ~.
..
described a frantic, violent struggle, claimed that pettitioner
touched her breasts both over her clothing and while they were
exposed.
Yet , when defense counsel confronted her. with her signed state
ment to the investigating detective, the complaintant stated that
he just "grabbed my chest". She did not recall whether pettitione
r had touched them while they were exposed. This was the only
evidence bearing on the charge of first-degree sexual abuse.
Nevertheless, the jury convicted pettitioner of this offense.
The complaintant also could not adequately explain how
pettitioner was able to pull her long dress up and rape her when
he had one hand was holding her.up in the air by her throat and
the other hand on her shoulder. Nor did she explain how he was
able to unbuckle his belt while he was using both of his handsjto
pin..her against the wall.
In heresummation, the prosecutor repeatedly attacked pettition
er1s statement to the police, which though ruled admissible after
a pretrial suppression hearing, was not in evidence. In that
statement, pettitioner wrote, that he left the bar area for the
men's room, but found that it was filthy. Instead, pettitioner
went to the women;' § bathroom, but when he entered the toilet area
he encountered the complaintant sitting on the toilet. Pettitione
r wrote that when complaintant came out of the stall they spoke
briefly and started kissing. But, when appellant heard someone
trying to.enter the bathroom,-he left the bathroom and exited the
bar through the back door after which several people followed .
and began cursing at him.
Since the court declared the statement admissible, defense
counsel addressed this statement in his opening remarks to the
jury, because he did not want the jury to believe that he was
hiding anything. But for reasons unknown, the prosecution never
moved this written statemant into evidence. Nor did pettitioner
testify and offer this defense at trial. And since the i . . J.
prosecution decided not to move the statement into evidence,
defense counsel did not mention it to the jury in his summation.
■Nevertheless, the prosecutor continued to attack the :r,
credibility of pettitioner's statement. When this continued for,
some time, the defense counsel objected, stating that the
prosecutor was not talking about the evidence, what the evidence
had shown. The court agreed that "there is no evidence to that
effect." and acknowledged that the prosecutor was "referring to
something said on opening statements". Thus, the court reminded
the jury that "anything said by the attorneys in opening, closing
or anything at other times throughout the trial is not evidence i
in this case'.'.
Although the court sustained defense counsel's objection, the
prosecurtor again argued that there was no evidence to corroborat
e pettitionerYs assertions in the written statement, emphasizing,
"And that's my point. There's no evidence of that in this case.
There's no evidence of that". Again, defense counsel objected,
cut the court inexplicably overruled the objection, thereby
allowing the prosecutor to argue:

7.

"There's no evidence that's what happened in the bathroom that
night. None. And it doesn't even make sense.
This is a girl who came in here and she was embarassed and
uncomfortable. You think she's telling somebody stay in the
bathroom.with her while she is urinating, some complete
stranger? It is absurd."
Meanwhile, the prosecutor denigrated defense counsel's crossexamination of the complaintant in which he asked the complaintan
t, who claimed that pettititoner lifted her up off the-ground 'w,:,
with one hand, to disclose her body weight. Although her weight
was relevant to the credibility of her claim, the prosecutor
declared that this line of questioning was "offensive".
Furthermore, the prosecutor mischaracterized the complaintant'
s testimony. The complaintant testified that, when she rejected
pettitioner's advances by screaming, pettitioner "took one hand
and grabbed me by the neck and covered my mouth with his other
hand and started pushing me into the toilet area".
According to the complaintant, when she tried to escape,
pettitioner put her in a "chokehold", pushed her against the wall
unbuckled his pants and allegedly raped her. On cross-examination
the complaintant mentioned, for the first time that pettitioner
"touched" her breasts, but she was unsure whether they were .
exposed. She did not claim that pettitioner had "groped" her.
Nor did she claim that pettitioner had tried to pull her dress
down.
Yet, on. summation, the prosecutor stated that pettitioner
"grabbed her, groped at her, pulled her dress down, touched her
breasts and touched her all over the body". The prosecutor also
added that, during this struggle, "she was fighting for her dress
", even though there was no evidence that pettitioner was trying
to rip off her clothing during the encounter.
Then, the prosecutor appealed to the jury's sympathies, noting
that she was a longtime Floral Park resident,, who was "involved
in her community", maintained "a close-knit group of friends".
As to these friendship's the prosecutor remarked that the friends
who;accompanied her to the bar were friends that she has known
since high;.school. In the prosecutor's view, these relationships
were important because they '.'tell/you something about who the
complaintant is and who she surrounds herself with".
Finally, in finishing her presentation to the jury, the
c
prosecutor directed the jury to diliver justice to the victim:
"Tell this defendant with your verdict that what he did to the
complaintant is not acceptable. Tell this defendant with your,:
verdict that she had a right to say no to him that night. Tell ,:i
him that women are not his prey:to be stalked and for him to do
with what he will. Tell him with your verdict that he is not
going to get away with what he did to the complaintant that night
as he told Evan Triantafilis that he would."
After the prosecutor finished her summation, and the court
dismissed the jury, defense counsel elaborated on the explained t
the basis of his objections:
"Judge, the prosecutor-and I don't like to interrupt anybody
when doing a summation-but adopted my opening statement and used
that as if my client had testified, and attacked that opening
statement through a good portion of her summation.

8.

I It finally got to the point I made an objection and you oc-staas
sustained it, butt! think the damage was done. I think it is
overtly prejudicial to my client. It shifted the burden, actually
using my statement which you told the jury at the begining, which
I even said at the begining of my closing statement that my o
opening staement wasn't evidence and I would't discuss anything i
in that. And it highlighted the fact that my client failed to
testify."
Thus for a remedy, defense counsel asked for a mistrial of "at
least a curative instruction reminding the jury again if they go
into deliberations they-that's not part of their deliberations".
Without eliciting argument from the prosecutor, the court
summarily denied defense counsel's application, finding nothing
that the prosecutor said had shifted the burden to pettitioner.
Accordingly, the court decided that it would only "reitterate and
emphasizecagain, as I have throughout the trial, that anything
said by counsel on opening statement or summation or in argument
to the Cour is not evidence in the case and is not to be
cosidered as such."
The jury acquitted pettitioner of Rape in the First Degree and
one count of Criminal Obstruction of Breathing or Blood Circulati
on. However, it convicted him of Sexual Abuse in the First Degree
and Criminal Obstruction of Breathing or Blood Circulation.
At the sentencing hearing, held on August 31, 2015, pettition
er was sentenced to 7 years prison to be followed by 15 years
Post Release Supervision, with 1 year running concurrently.

9.

REASONS FOR GRANTING THE PETITION
There was an adverse impact on the factfinder's applicatio
n of the reasonable doubt standard because there was unfair
predjudice to the petitioner caused by the prosecutor's attack
during summation of the petitioner's written statement, which was
not in evidence, as well as the prosecutor's numerous mi.s
mischaracterizations of the evidence and statements of her
opinion, as well as the trial judge's failure t6. properly address
the above. Accordingly, the judgement of conviction should be
reversed.
In Francis v. Franklin, 471 U.S. 307 91985), the Supreme
Court found potential for a violation of Winship whenever there
is a reasonable possibility of an adverse impact on a factfinders
application of the reasonable doubt standard.
The reasonable doubt standard was influenced by the p
prosecutor's attack during summation of the defendant's written
statement, which defense attorney referenced in his opening
statement, but which was not admitted into evidence, and by the
judge initially sustaining the defense counsel's objection to
this, and then subsequently overruling the defense's objection
to the same as the prosecutor continued to attabk the defendant's
statement which was not in evidence, thereby reinforcing to the
jury that there was no impropriety. Thecprosecutor repeatedly
attacked the credibility of petitioner's written statement that
was not in evidence. A cursory review of these remarks reveals
this (T. 1554-55, 1159-61, 1164-65, 1189,1190).
The jury was clearly impacted and confused by the improper
attack of the defendant's statement that was not in evidence,wUho
which consequently, impacted that factfinder's application of the
reasonable doubt standard and resulted in an inconsistancy in the
jury's verdict.
The jury clearly had reasonable doubt reguarding the o
credibility of the complaintant and therefore acquitted-mc.11 i.
petitioner of one count of rape in the first degree and one
count of criminal obstruction of breathing or blood circulation
There is no logical basis by which the jury could aquit the
petitioner of rape based on reasonable doubt, yet convict him of
other charges premised on the notion that a violent attack had
occureduunless i.hhe jury's application of reasonable doubt to all
counts defendant was charged with was unduly influenced by land
prejudiced by! the prosecutor's attadk of the defendant's
statement that was not in evidence and by the judge's overruling
of defense's objection to this.
ADA Burke's summation lasted approximately 2 hours. At
approximately 4:25 pm, the court advised ADA Burke that she had
5 minutes left as the time approached 4:30 pm when the court
must stop all proceedings to release the court officers to avoid
any overtime. ADA Burke then finished, and the judge quickly
excused the jury without giving the defense attorney the o
opportunityuto create a record concerning ADA Burke^s improper
remarks during her summation. The defense1 attorney asked the com:
court if he could make a record and the court said it could be
addressed the following morning before he would charge the jury.

10.

(Trial record, p. 791, lines 13-24)
When the trial resumed the following day, the defense
attorney asked for a mistrial based on the prosecutor's repeated
commenting on the petitioner's statement that was not in evidence
The motion was denied. The court's instructions to the jury befor
and after summation that comments made during opening and s Limma
summation are not evidence for the jury to consider-did not
alleviate the predjudice to petiiioner(T. 1092-96, 1214-15). Such
a generic instruction, issued the day after the prosecution's
summation and which failed to reference to the specific remakks
that the jury may not consider, utterly failed to cure the pradu
predjudice to petitioner. See People v. Wright 133 A.D. 1097(3rd
Dep't 2015) (reversing conviction on account off I: the prosecution's
improper remarks on summation, even where the Qdphty Court
Bgpeatedly instructed the jury to disreguard parts of the prosocu
prosecutor^ summation).
Most disturbing is the court's overruling of the defense
attorney's objection and allowing the proseciiifion to continue to
attack the defendant's statement, which was not in evidence and
then allowing the jury to Asleep on it" under the assumption that
there was no impropriety because the judge overruled the defense^
objection to the attack of the defendant's statement which was no
not ingevidence. As the Court announced in People v. Lloyd, 115
A.D. 3d 766 (2d Dep't 2014), "when as here, the court overruled
the defendant's objections, and gives standing to the statement
of the prosecutor as legitimate argument, the possibility of
predjudice is greatly enhanced by leading the jury to believe
'that there was no impropriety."
So what happens when a jury is allowed to "sleep on it?"
The active system consolidation process assumed to take place
during sleep leads to a transformation and a qualitative
reorganization offthe memory representation, whereby the "gist"
is extracted from the newly encoded memory information and
integraded into the long-term knowledge networks" (concluding
remarks from "About Sleep's Role in Memory" by Rasbh and Jan
Born, Physiological Reviews, American Physiological Society).
The prosecutor's improper remarks during summation and
subsequent overruling of the defense's objection undoubtedly
confused the jury and impacted the jury's deliberations by
causing the jury to consider matters not in evidence. By
arguing well outside the four corners of the evidentiaiy record,
the prosecutor failed to give petitioner "the full measure of
fairness" to which he is entitiled. The judgement of conviction
should be reversed and immediatedreiease from custody is
warrented.
As shown above petitioner did not recieve a fair trial by
a jury of his peers and there was an adverse impact otfi the
factfinders application of the reasonable doubt standard because
there was unfair predjudice to the petitioner caused by the
prosecutor's attack during summation of the defendant's written
statement, which was not in evidence, aa well as the prosecutor's
numerous mischaracterizations of the evidende and statements
of the above. Accordingly, the judgement of conviction should be
reversed and immediate release from custody granted.

11.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Spr.

12.

